CAPITAL CASE
No. 19-239

IN THE SUPREME COURT OF THE UNITED STATES
LARRY BENZON, WARDEN,
UTAH STATE PRISON,
Petitioner,
v.
TROY MICHAEL KELL,
Respondent.
CERTIFICATE OF SERVICE
I, Dale A. Baich, a member of the Bar of this Court, certify that on October 23,
2019, I sent by Federal Express, postage prepaid, the original and ten copies of the
above-captioned Brief in Opposition to Petition for Writ of Certiorari, and supporting
documents to the Clerk of Court, after having electronically filed and emailed a copy
of those same documents to the Clerk of Court on October 23, 2019. I further certify
that on October 23, 2019, a copy of these documents was emailed to counsel for
Petitioner, Utah Solicitor General Tyler R. Greene; on October 23, 2019, he was also
sent a copy by first-class mail at 350 N. State Street, Suite 230, Salt Lake City, Utah
84114-2320. Counsel for Petitioner can be reached at (801) 538-9600. I certify that all
parties required to be served have been served.

Respectfully submitted:

October 23, 2019
JON M. SANDS
Federal Public Defender
*Dale A. Baich
Lindsey Layer
Alexandra LeClair
Assistant Federal Public Defenders
For the District of Arizona
850 West Adams Street, Suite 201
Phoenix, Arizona 85007
Dale_Baich@fd.org
Lindsey_Layer@fd.org
Alexandra_LeClair@fd.org
(602) 382-2816
*Counsel of Record
/s/Dale A. Baich
COUNSEL FOR RESPONDENT

